<html>
<title> - U.S. SURFACE TRANSPORTATION: TECHNOLOGY DRIVING THE FUTURE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                     U.S. SURFACE TRANSPORTATION: 
                     TECHNOLOGY DRIVING THE FUTURE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RESEARCH & TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2015

                               __________

                           Serial No. 114-23

                               __________

 Printed for the use of the Committee on Science, Space, and Technology




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






       Available via the World Wide Web: http://science.house.gov



                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-228PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, TEXAS
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
MICHAEL T. MCCAUL, Texas             ELIZABETH H. ESTY, Connecticut
RANDY HULTGREN, Illinois             KATHERINE M. CLARK, Massachusetts
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             SUZANNE BONAMICI, Oregon
BRUCE WESTERMAN, Arkansas            ERIC SWALWELL, California
GARY PALMER, Alabama                 EDDIE BERNICE JOHNSON, Texas
RALPH LEE ABRAHAM, Louisiana
LAMAR S. SMITH, Texas


















                            C O N T E N T S

                             June 12, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairman, 
  Subcommittee on Research, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................    14
    Written Statement............................................    15

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    16
    Written Statement............................................    17

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    18
    Written Statement............................................    19

                               Witnesses:

The Honorable Gregory D. Winfree, Assistant Secretary for 
  Research and Technology, United States Department of 
  Transportation
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Michael Meyer, Chair, Research and Technology Coordinating 
  Committee (FHWA), National Academies' Transportation Research 
  Board
    Oral Statement...............................................    47
    Written Statement............................................    49

Dr. Brian Smith, Director, Center for Transportation Studies, 
  University of Virginia
    Oral Statement...............................................    60
    Written Statement............................................    62

Mr. Jeffrey J. Owens, Chief Technology Officer and Executive Vice 
  President, Delphi Automotive
    Oral Statement...............................................    71
    Written Statement............................................    73

Discussion.......................................................    80

             Appendix I: Answers to Post-Hearing Questions

The Honorable Gregory D. Winfree, Assistant Secretary for 
  Research and Technology, United States Department of 
  Transportation.................................................    92

Dr. Michael Meyer, Chair, Research and Technology Coordinating 
  Committee (FHWA), National Academies' Transportation Research 
  Board..........................................................   117

Dr. Brian Smith, Director, Center for Transportation Studies, 
  University of Virginia.........................................   130

Mr. Jeffrey J. Owens, Chief Technology Officer and Executive Vice 
  President, Delphi Automotive...................................   134

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Elizabeth H. Esty, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   146

 
                      U.S. SURFACE TRANSPORTATION:
                     TECHNOLOGY DRIVING THE FUTURE

                              ----------                              


                         FRIDAY, JUNE 12, 2015

                  House of Representatives,
                    Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 9:09 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairwoman Comstock. Good morning. The Subcommittee on 
Research and Technology will come to order. Without objection, 
the Chair is authorized to declare recesses of the Subcommittee 
at any time. Welcome to today's hearing, titled Surface 
Transportation Technology: Driving the Future. In front of you 
are packets containing the written testimony, biographies, and 
truth in testimony disclosures for today's witnesses. I now 
recognize myself for five minutes for an opening statement.
    The products that flow through our networks of highways, 
railroads, and pipelines are the lifeblood of our country's 
economy, and the nation's transportation infrastructure is the 
vital network through which it must flow. Consequently, dollars 
spent on the research and development and technology activities 
of the Department of Transportation are essential to the 
nation's prosperity. These efforts support critical 
infrastructure, and enhance both a healthy economy and the most 
efficient transportation system that our technology can 
provide. Today's hearing provides the Committee with an 
opportunity to examine research and development priorities at 
the Department, and to understand the important policy issues 
regarding the future of surface transportation.
    We hold this hearing amidst the ongoing efforts to 
replenish the Highway Trust Fund, and make for long-term 
investment and planning. I'm intimately familiar with these 
concerns, because, in addition to my role as Chairwoman of the 
Subcommittee, I also serve on the House Committee on 
Transportation and Infrastructure, and I also live in a 
district filled with a diverse group of transportation 
challenges, from highway construction to metro and airport 
issues. Transportation funding challenges are not just a 
transportation policy issue, but a science and technology 
issue. We know that the technology industry can provide us with 
breakthroughs for more efficient uses of our transportation 
dollars and better results on the ground. A shortfall in 
research and development funding would have real life 
consequences on technological advancements involving not just 
cars, trucks, and trains, but highways, bridges, and pipelines 
also. Later today we will hear more about one such exciting 
technology from one of our witnesses on the topic of autonomous 
cars. But while we may be several years away from the world of 
driverless cars, another important technology that can save 
lives already exists today.
    By law, positive train control, or PTC, technology is 
required on 60,000 miles of railroad track by the end of this 
year. The benefits can't come soon enough, as evidenced by last 
month's Amtrak derailment outside Philadelphia. Positive train 
control technology, we heard in the Transportation Committee 
recently, would've stopped the train from taking that 50 mile 
an hour turn at a speed of 106 miles per hour, and, obviously, 
would've changed the devastating results in that case. While 
Amtrak is on schedule to meet the deadline to implement PTC for 
its Northeast Corridor by the end of the year, there are other 
railroads that have told us to date that they can't make that 
deadline. Closer to home, our nation's metro system suffers 
from outstanding safety issues that require continuous 
vigilance by Congress, as well as the full support of the 
federal government for technological upgrades that would 
benefit many of us here in the room today.
    Today's hearing will also provide the Committee an 
opportunity to understand research and development activities 
in surface transportation both at federally sponsored research 
institutions, as well as the state level entities, such as the 
one representing the University of Virginia. I look forward to 
hearing everyone's testimony today, and to engage in a 
productive and fruitful discussion on U.S. surface 
transportation, research, development, technology, investments, 
priorities, and policies. I also look forward to continuing to 
work with many of you to maximize the effectiveness of the 
research and development that we--that Congress does as we 
reauthorize the federal surface transportation programs. Thank 
you all for joining us today.
    [The prepared statement of Chairwoman Comstock follows:]

                   Prepared Statement of Subcommittee
                      Chairwoman Barbara Comstock

    The products that flow through our networks of highways, railroads 
and pipelines are the lifeblood of our country's economy, and the 
nation's transportation infrastructure is the vital network through 
which it must flow. Consequently, dollars spent on the research, 
development and technology--or RD&T--activities at the Department of 
Transportation are essential to the nation's prosperity. These efforts 
support critical infrastructure, and enhance both a healthy economy and 
the most efficient transportation system.
    Today's hearing provides the Committee with an opportunity to 
examine RD&T priorities at the Department of Transportation, and to 
understand the important policy issues regarding the future of surface 
transportation. We hold this hearing amidst the ongoing efforts to 
replenish the Highway Trust Fund with long term investment and 
planning.
    I am intimately familiar with these concerns because in addition to 
my role as Chairwoman of this Subcommittee, I also serve on the House 
Committee on Transportation and Infrastructure. I also live in a 
district filled with a diverse group of transportation challenges; from 
highway congestion to metro and airport issues.
    Transportation funding challenges are not just a transportation 
policy issue, but a science and technology issue. We know the tech 
industry can provide us with breakthroughs for more efficient uses of 
transportation dollars and better ways to help relieve congestion.
    A shortfall in RD&T funding would have real life consequences on 
technological advancements involving not just cars, trucks and trains, 
but highways, bridges and pipelines too. Later today we will hear more 
about one such exciting technology from one of our witnesses on the 
topic of autonomous cars. But while we may be several years away from a 
world of driverless cars, another important technology that can save 
lives already exists today.
    By law, Positive Train Control--or PTC--technology is required on 
60,000 miles of railroad track by the end of this year. The benefits 
can't come too soon as evidenced by last month's Amtrak derailment 
outside Philadelphia. Positive Train Control technology would have 
stopped the train from taking a 50 mile-per-hour turn at a speed of 106 
miles per hour, and prevented the resulting fatalities and injuries. 
While Amtrak is on schedule to meet the deadline to implement PTC for 
its Northeast Corridor by the end of the year, it is troubling to note 
that many railroads are likely to miss the deadline, perhaps 
necessitating additional Congressional action.
    Closer to home, our nation's Metro system suffers from outstanding 
safety issues that require continued vigilance by Congress as well as 
full support of the federal government for technological upgrades that 
would benefit many of us in the room today who rely on this form of 
transportation.
    Today's hearing will also provide the Committee an opportunity to 
understand RD&T activities in surface transportation both at federally 
sponsored research institutions, as well as at state-level entities 
such as the one representing the University of Virginia.I look forward 
to hearing everyone's testimony and to engage in a productive and 
fruitful discussion on U.S. surface transportation research, 
development, technology, investments, priorities, and policies.
    I also look forward to continuing to work with many of you to 
maximize the effectiveness of surface transportation RD&T programs as 
Congress attempt to reauthorize the federal surface transportation 
programs. Thank you all for joining us today.

    Chairwoman Comstock. And I now recognize the Ranking 
Member, the gentleman from Illinois, for his opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock. Thank you for 
calling this hearing. And one other thing, can you fix the 
Metro for us? Umm . . .
    Chairwoman Comstock. We're all working together on that.
    Mr. Lipinski. Do everything I can, and riding it every day 
out here. I appreciate the witnesses for being here, and I look 
forward to their testimony.
    Whether by car, train, bus, or foot, we all have to rely on 
transportation system for our daily commutes and longer 
distance travel. When it works, everyone's happy, but when it 
doesn't, the results can range from annoying to catastrophic. 
With the U.S. population predicted to increase by nearly 30 
percent by 2050, we have to find ways to move people and 
freight more efficiently and more safely. Our current system of 
roads, bridges, railroads, and transit lines will not be 
sufficient to support the additional influx of people. In some 
instances, it's not sufficient right now. This is something we 
struggle with on the Transportation Committee, which both the 
Chairwoman and I serve on.
    But the answer will not simply be building more and bigger, 
because it is not clear that we will have the funding, the 
popular support, or the land to do that. So what do we do? 
Well, surface transportation used to be rather staid and 
unimaginative, some might say boring. But today, through 
research and innovation, the very concept of mobility is being 
reinvented. This is the key to meeting the transportation 
demands of our nation, and we in Congress must do our part to 
help the researchers, innovators, and entrepreneurs 
revolutionize transportation. As an engineer, this is something 
I've been interested in and involved in during my ten plus 
years on this Committee, and we're--there--the rapid advances 
that are being made, I'm very interested to hear from our 
witnesses about today.
    The research title of the upcoming surface transportation 
bill provides an important opportunity for this Committee to 
provide more guidance to the Department of Transportation on 
national transportation R&D priorities for highways, public 
transportation, rail, and freight. As I discussed in my recent 
op-ed in The Hill, we have to make federal investments in 
research that will provide a safer and more efficient 
transportation system for future generations. Long term 
transformational research must be prioritized in the federal 
budget, and we have to ensure that our federal research 
partners, particularly University Transportation Centers, are 
able to conduct advanced research. I have drafted a bill that 
will help us to do that, and help the U.S. usher in a new age 
of transportation innovation. I look forward to hearing the 
panel's thoughts in this direction.
    I recently convened an advanced transportation technology 
roundtable in Silicon Valley, in which I heard from OEMs, tier 
one suppliers, and tech startups. While we talked about new 
ideas for making mobility more efficient, more environmentally 
friendly, and more available to everyone, a common theme was a 
need for improved connected infrastructure and information 
technology capabilities. Cars talking to each other was once a 
thing of science fiction. At a Connected Car Coalition 
roundtable I spoke to in March, automakers, the telecom 
industry, and the DOT all agreed that this technology is now at 
hand. This includes wireless communications that can help cars 
see around corners. The 5.9 Gigahertz spectrum that is 
currently reserved for transportation safety communication can 
prevent up to 80 percent of crashes, according to NHTSA. It is 
important that this spectrum can be used to prevent accidents 
and save lives.
    Next on the horizon are autonomous vehicle systems. This 
week the National Transportation Safety Board recommended that 
all new vehicles be equipped with active collision avoidance 
systems, and Google has indicated fully autonomous cars could 
be only five years away. As we will hear from Delphi, they 
drove a vehicle across the U.S. that was autonomous for 99 
percent of the time. Until that very challenging last one 
percent of automation is achieved, more work is needed, 
including human factors research to understand how drivers will 
re-engage with driving after being engrossed in their phones or 
a movie for an extended period of time.
    These technologies incorporate findings from many areas of 
basic research and related technologies that have been funded 
for decades by agencies such as NSF, NIST, NASA, and DOD. It is 
not difficult to imagine how planetary rover technology for 
space exploration, and how defense robotic technology is 
playing a part in advancing driverless car technology. It is 
imperative that the Department of Transportation continue to 
actively collaborate with other agencies to help translate this 
research into advances in autonomous vehicles.
    Finally, among the issues I think need to be addressed is 
freight research. I represent part of Chicago, a city to which 
25 percent of all freight travels at some point in its journey 
across our nation. Freight volume is projected to increase by 
25 percent by 2025. Freight movement is a national problem, and 
we need a federal research program to address these challenges. 
I hope Mr. Winfree and Dr. Meyer will let us know what Congress 
can do in the next reauthorization to help the Assistant 
Secretary advance these and other modal administrations 
research recommendations. Identifying the research priorities 
for the nation's transportation system is critical to the 
safety of our citizens, and our economic competitiveness, and 
the Committee on Science, Space, and Technology has an 
important role to play.
    Again, I want to thank the Chair for calling this hearing, 
and I look forward to the witnesses' testimony on this 
important subject.
    [The prepared statement of Mr. Lipinski follows:]

                   Prepared Statement of Subcommittee
                Minority Ranking Member Daniel Lipinski

    Good morning and thank you, Chairwoman Comstock, for calling this 
hearing. I appreciate thewitnesses being here and look forward to their 
testimony.
    Whether by car, train, bus or by foot we all have to rely on the 
transportation system for our daily commutes and longer distance 
travel. When it works everyone is happy, but when it doesn't the 
results can range from annoying to catastrophic. With the U.S. 
population predicted to increase by nearly 30 percent by 2050, we have 
to find ways to move people and freight more efficiently and more 
safely. Our current system of roads, bridges, railroads, and transit 
lines will not be sufficient to support the additional influx of 
people. Moreover, it is not clear that we will have the funding, the 
popular support, or the land to just build more. Instead, we must make 
our infrastructure work smarter.
    Surface transportation used to be rather staid, unimaginative. Some 
might say boring. But today the very concept of ``mobility'' is being 
reinvented. I believe that research and development are critical to 
meeting the future transportation demands of our Nation, and we in 
Congress must do our part to help bring about this revolution.
    The research title of the upcoming surface transportation bill 
provides an important opportunity for this Committee to provide more 
guidance to the Department of Transportation on national transportation 
R&D priorities for highways, public transportation, rail, and freight. 
As I discussed in my recent Op-Ed in The Hill, we have to make federal 
investments in research that will provide a safer transportation 
environment for future generations. Long-term, transformational 
research must be prioritized in the federal budget and we have to 
ensure that our federal research partners, particularly University 
Transportation Centers, are able to conduct advanced research.
    I am working on a bill that will help the U.S. usher in a new age 
of transportation innovation. I look forward to hearing the panel's 
thoughts in this direction.
    Among the issues I think need to be addressed is freight research. 
I represent part of Chicago, a city through which 25% of all freight 
travels at some point in its journey. Freight volume is projected to 
increase 25% by 2025. Freight is a national problem, and we need a 
federal research program to address these challenges.
    I recently convened an advanced transportation technology 
roundtable in Silicon Valley in which I heard from OEMs, Tier 1 
suppliers, and tech start-ups. While I heard about new ideas for making 
mobility more efficient, more environmentally friendly, and more 
available to everyone, a common theme was the need for improved 
connected infrastructure and information technology capabilities. Cars 
talking to each other was once a thing of science fiction. At a 
Connected Car Coalition Roundtable I attended in March, automakers, 
telecom industry, and DOT all agreed that this technology is now at 
hand. This includes wireless communications that can help cars see 
around corners. The 5.9 Giga Hertz spectrum that is currently reserved 
for transportation safety communication can prevent up to 80% of 
crashes according to NHTSA. It is important that this spectrum be used 
to prevent accidents and save lives.
    Next on the horizon are autonomous vehicle systems. This week the 
National Transportation Safety Board recommended that all new vehicles 
be equipped with Active Collision Avoidance Systems, and Google has 
indicated fully autonomous cars could be only five years away. As we 
will hear from Delphi, they drove a vehicle across the U.S. that was 
autonomous for 99% of the time. Until that very challenging last 1% of 
automation is achieved, we need human factors research to understand 
how drivers will re-engage with driving after being engrossed in their 
phones or a movie for an extended period of time. These technologies 
incorporate findings from many areas of basic research and related 
technologies that have been funded for decades by agencies such as the 
National Science Foundation, the National Institute of Standards and 
Technology, NASA, and the Department of Defense. It is not difficult to 
imagine how planetary rover technology for space exploration and how 
defense robotic technology is playing a part in advancing driverless 
car technology. It is imperative that the Department of Transportation 
continue to actively collaborate with other agencies to help translate 
this research into advances in autonomous vehicles.
    I hope Mr. Winfree and Dr. Meyer will let us know what Congress can 
do in the next reauthorization to help the Assistant Secretary advance 
these and other modal administrations' research recommendations. 
Identifying the research priorities for the nation's transportation 
system is critical to the safety of our citizens and our economic 
competitiveness, and the Committee on Science, Space, and Technology 
has an important role to play. Again, I want to thank the Chair for 
calling this hearing, and I look forward to the witnesses' testimony on 
this important topic.
    I yield back.

    Chairwoman Comstock. I now recognize the Chairman of the 
full Committee, Mr. Smith.
    Chairman Smith. Thank you, Chairwoman Comstock again for 
holding this hearing, and appreciate the witnesses who are 
here, and look forward to their testimony.
    The future of America's transportation systems depends on 
the effective development and use of new technologies. 
Technology enhances the capacity and safety of our roadways, 
railways, and other transportation systems. Technology can 
relieve traffic congestion, and enable our pipelines to safely 
transport hazardous materials. This will boost economic 
efficiency, reduce cost, and improve productivity.
    The federal government's investments in the transportation 
network should be targeted to achieve desired outcomes. The 
Department of Transportation's current five year research, 
development, and technology strategic plan merges Congress's 
priority from the 2012 transportation bill, commonly referred 
to as MAP 21, with the Department's strategic plan goals. It 
creates five research, development, and technology priority 
areas for Fiscal Years 2013 to 2018. Those include promoting 
safety, extending the life of future transportation systems, 
improving the movement of goods, reducing congestion, and 
improving mobility, and protecting the environment. If we focus 
on smart priorities, the investments we make today will improve 
the future of transportation.
    Cutting edge concepts encompass a broad range of 
information and communications technologies that have the 
potential to improve the safety, efficiency, and performance of 
our nation's transportation system. The issues before us today 
touch on all modes of surface transportation, and impact every 
American. High priority research and development will not only 
help create autonomous automobiles, and improve crash 
avoidance, and other safety technologies, it will also lead to 
better roads. Some examples include the use of nanotechnology 
to create new and better road surfacing materials, and the 
development of new means of integrating multi-mode 
transportation. This will allow Americans to navigate the roads 
more easily and comfortably.
    It is essential that we find a way to maintain a healthy, 
substantive research base for our state and local 
transportation initiatives. We have to ensure that Congress 
gets its priorities right, and avoid duplication of research, 
in order to ensure taxpayers receive maximum value for their 
hard earned tax dollars. This makes the Committee's 
jurisdiction over the research, development, and technology 
programs at the Department of Transportation particularly 
relevant.
    Thank you, Madam Chair, again. I look forward to our 
witnesses.
    [The prepared statement of Chairman Smith follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                          Chairman Lamar Smith

    Thank you Chairwoman Comstock for holding today's hearing.
    The future of America's transportation systems depends on the 
effective development and use of new technologies. Technology enhances 
the capacity and safety of our roadways, railways, and other 
transportation systems. Technology can relieve traffic congestion and 
enable our pipelines to safely transport hazardous materials. This will 
boost economic efficiency, reduce costs and improve productivity.
    The federal government's investments in the transportation network 
should be targeted to achieve desired outcomes. The Department of 
Transportation's current five-year Research, Development, and 
Technology Strategic Plan merges Congress' priorities from the 2012 
transportation bill--commonly referred to as MAP-21--with the 
Department's Strategic Plan goals.
    It creates five research, development and technology priority areas 
for fiscal years 2013 to 2018. Those include: promoting safety; 
extending the life of future transportation systems; improving the 
movement of goods; reducing congestion and improving mobility; and 
protecting the environment.
    If we focus on smart priorities, the investments we make today will 
improve the future of transportation. Cutting edge concepts encompass a 
broad range of information and communications technologies that have 
the potential to improve the safety, efficiency and performance of our 
nation's transportation system.
    The issues before us today touch on all modes of surface 
transportation and impact every American. High priority research and 
development will not only help create autonomous automobiles and 
improve crash avoidance and other safety technologies, it will also 
lead to better roads.
    Some examples include the use of nanotechnology to create new and 
better road surfacing materials and the development of new means of 
integrating multi-mode transportation. This will allow Americans to 
navigate the roads more easily and comfortably.
    It is essential that we find a way to maintain a healthy, 
substantive research base for our state and local transportation 
initiatives. We have to ensure that Congress gets its priorities right 
and avoid duplication of research in order to ensure taxpayers receive 
maximum value for their hard-earned tax dollars.
    This makes the Committee's jurisdiction over the research, 
development and technology programs at the Department of Transportation 
particularly relevant. I thank our witnesses today for making the 
effort to be here and for their knowledgeable testimony.

    Chairwoman Comstock. Thank you, Mr. Chairman. And I now 
recognize the Ranking Member of the full Committee for a 
statement, Mrs. Johnson.
    Ms. Johnson. Thank you very much, Madam Chair, for holding 
the hearing, thank our witnesses for being here. This hearing 
was called to review research and development programs at the 
Department of Transportation, and to review the relationship 
between the Department and non-federal entities that also 
conduct transportation research.
    Last year, almost to this day, the Committee held a hearing 
to examine the impact of research and technology on the future 
of transportation. These are very general topics, and it is 
good to have a general overview now and then, however, I hope 
we will also have the opportunity to move and look more 
thoroughly--and examine more thoroughly specific transportation 
R and D topics in this Congress.
    As a member of the Science, Space, and Technology 
Committee, and the Transportation and Infrastructure Committee, 
for 22-1/2 years now, I am keenly aware that transportation 
disasters have been filling the news over the last several 
weeks. My thoughts and prayers are with the victims and 
families affected by the fatal Amtrak crash in Philadelphia 
last month, my Dallas district, and surrounding areas of North 
Texas, overwhelmed last month by days of heavy rain, where 1 
night 7 inches of rain fell and shut down roads for days, and 
of course the rest of the state. Having a district that has 
five interstates crossing it, Interstate 20, 30, 35, 45 and 
635, I'm keenly aware of how much we need research to make sure 
that when repairs are done, they can stay in place.
    With respect to pipelines, the PHMSA inspectors have found 
that there are 54 to 74 percent corrosion of the pipeline wall, 
in last month's rupture that spilled 100,000 gallons of crude 
oil along the California coastline. In light of these recent 
events affecting our rails, highways, and pipelines, there are 
a number of technology issues on the minds of our constituents, 
and this Congress. As we consider reauthorization of surface 
transportation programs, we must keep that in mind.
    We're living in a time that is truly transformational for 
all modes of transportation. When I think about the potential 
benefits of connected vehicle technology, I don't think it's 
too lofty to compare its potential impact to the impact of the 
Eisenhower interstate highway system 60 years ago on connecting 
goods and people across the nation. As our population grows, so 
too is access to public transportation and ride sharing 
options. From highways, public transportation, to railroads, 
research and development of innovative technologies and 
policies can improve the safe and efficient movement of people 
and freight. My district also has an inland port.
    It is equally important to implement policies and support 
long term advanced research that would lead to revolutionary 
improvements to our transportation systems. To ensure a tech-
savvy transportation workforce, it is also important that we 
implement policies to incorporate transportation applications 
in the teaching of STEM fields. My colleagues and I must come 
together to support a multi-year bipartisan surface 
transportation reauthorization bill that includes strong R and 
D provisions with adequate funding levels. I only hope that the 
Science, Space, and Technology Committee will take the steps 
necessary to ensure that we have a strong voice in what the 
bill looks like.
    Again, I thank our witnesses for being here today, and I 
look forward to your testimony. Thank you, and I yield back.
    [The prepared statement of Ms. Johnson follows:]

   Prepared Statement of Committee on Science, Space, and Technology
                  Ranking Member Eddie Bernice Johnson

    Good morning, I would like to thank the Chair for holding today's 
hearing.
    This hearing was called to review research and development programs 
at the Department of Transportation and to review the relationship 
between the Department and non-federal entities that also conduct 
transportation research. Last year, almost to the day, this Committee 
held a hearing to examine the impact of research and technology on the 
future of transportation. These are very general topics and it is good 
to have a general overview now and then. However, I hope we will also 
have the opportunity to more thoroughly examine specific transportation 
R&D topics this Congress.
    Transportation disasters have been filling the news over the last 
several weeks. My thoughts and prayers are with the victims and 
families affected by the fatal Amtrak crash in Philadelphia last month. 
My Dallas district and surrounding areas of North Texas were 
overwhelmed last month by days of heavy rains where in one night seven 
inches of rain fell and shut down roads for days. With respect to 
pipelines, PHMSA inspectors have found that there was a 54 to 74 
percent corrosion of the pipeline wall in last month's rupture that 
spilled 100,000 gallons of crude oil along the California coastline. In 
light of these recent events affecting our rails, highways, and 
pipelines, there are a number of technology issues on the minds of our 
constituents and this Congress as we consider a reauthorization of 
surface transportation programs.
    We are living in a time that is truly transformational for all 
modes of transportation. When I think about the potential benefits of 
connected vehicle technology, I don't think it's too lofty to compare 
its potential impact to the impact of the Eisenhower Interstate Highway 
System 60 years ago on connecting goods and people across the nation. 
As our population grows, so too is access to public transportation and 
ridesharing options.
    From highways, to public transportation, to railroads, research and 
development of innovative technologies and policies can improve the 
safe and efficient movement of people and freight. It is equally 
important to implement policies that support long-term, advanced 
research that will lead to revolutionary improvements to our 
transportation systems. To ensure a tech savvy transportation 
workforce, it is also important that we implement policies to 
incorporate transportation applications in the teaching of STEM fields. 
My colleagues and I must come together to support a multi-year, 
bipartisan surface transportation reauthorization bill that includes 
strong R&D provisions with adequate funding levels. I only hope that 
the Science, Space, and Technology Committee will take the steps 
necessary to ensure that we have a strong voice in what that bill looks 
like.
    Again, I thank the witnesses for being here today and look forward 
to their testimony.

    Chairwoman Comstock. Thank you. At this time I would like 
to introduce our witnesses. Our first witness is the Honorable 
Mr. Greg Winfree, Assistant Secretary for Research and 
Technology for the Department of Transportation. He has also 
served the Department as the agency's Chief Counsel, Deputy 
Administrator, Acting Administrator, and as Chairman of the 
Department of Transportation's Innovation Council. He is also 
an avid motorcycle rider, and founding member of the USDOT 
Triskelion Motorcycle Club. Mr. Winfree earned a B.S. degree in 
Communications and Public Relations from St. John's University, 
and his law degree from Georgetown University Law Center.
    Our second witness is Dr. Michael Meyer. Dr. Meyer is the 
Chair of the Research and Technology Coordinating Committee for 
the National Academies Transportation Research Board, and a 
Senior Advisor for Parsons, Brinkerhoff. Prior to holding these 
positions, Dr. Meyer was a professor of civil and environmental 
engineering and Chair of the School of Civil and Environmental 
Engineering at the Georgia Institute of Technology. Dr. Meyer 
has earned three degrees in civil engineering, his Bachelor's 
from the University of Wisconsin, his Master's from 
Northwestern University, and his Ph.D. from MIT.
    Our third witness is Dr. Brian Smith, Director of the 
Center for Transportation Studies at the University of 
Virginia. I appreciate getting my son through there, class of 
2005. Where he is also--where Dr. Smith, not my son, is also 
the Chair of the Department of Civil and Environmental 
Engineering. Dr. Smith was elected fellow of the American 
Society of Civil Engineers in 2009, and is a recipient of many 
awards in the fields of transportation and engineering. Dr. 
Smith received his B.S. in Mechanical Engineering from Virginia 
Tech--I've got another one who was there--his M.S. in Systems 
Engineering from the University of Virginia, and his Ph.D. in 
Civil Engineering from the University of Virginia. And I 
understand your daughter Cecilia is here today with you, in the 
audience, so let me also welcome her here, and--it's always 
nice to have--here visiting, so welcome also.
    Our final witness today is Mr. Jeffrey Owens, Chief 
Technology Officer and Executive Vice President of Delphi 
Automotive, one of the world's largest automotive parts 
manufacturers. Mr. Owens has served in a variety of 
engineering, manufacturing, finance, and product line 
assignments, including as President of Delphi Asia-Pacific from 
2006 to 2009. Mr. Owens earned his Bachelor's Degree in 
Engineering from Kettering University, and his Master's in 
Business from Ball State University. He currently serves as the 
Chairman of the Kettering University Board of Trustees.
    In order to allow time for discussion, we ask you to limit 
your testimony to five minutes, and your entire written 
statement will be made part of the record. Thank you, and I now 
recognize Mr. Winfree for five minutes for his testimony.

           TESTIMONY OF THE HON. GREGORY D. WINFREE,

        ASSISTANT SECRETARY FOR RESEARCH AND TECHNOLOGY,

           UNITED STATES DEPARTMENT OF TRANSPORTATION

    Mr. Winfree. Thank you, Chairwoman Comstock. Ranking Member 
Lipinski, and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Transportation's surface transportation research, 
development and technology programs, also known as RD&T. We all 
recognize that results driven transportation, research and 
technology are essential for maximizing the federal investment 
in transportation infrastructure and operations. Our 
transportation system needs to be smarter, and that's why the 
Department provided the Grow America Act, a bill that, at its 
core, shifts the foci of transportation funding discussion from 
short-term measures to long-term custodianship. We look forward 
to charting a path toward a common solution together.
    Secretary Anthony Foxx highlighted the challenges we face 
in his strategic framework, entitled Beyond Traffic 2045: 
Trends and Choices. Beyond Traffic is a draft survey of the 
major forces shaping transportation and a discussion of the 
potential solutions that can be adopted to address those 
forces. It is not prescriptive, it doesn't advocate for 
specific policies, but it does underscore the critical 
decisions we're going to have to make, drawing on a variety of 
data, research, and analysis to frame key questions, such as 
how can we avoid a future of crumbling infrastructure in 
gridlock traffic, where our transportation network constrains, 
rather than enables, our economy? How can we ensure that we are 
creating the right connections so that all of us can have the 
best opportunities to access jobs, goods, services, and each 
other?
    When Secretary Foxx unveiled the draft of Beyond Traffic in 
February, he invited the American public to join him in the 
discussion, to have a frank conversation about the shape, size, 
and condition of our transportation system, and how it will 
meet the needs and goals of our nation for decades to come. And 
we are pleased that people across the country have answered his 
invitation. We've received hundreds of comments at events, 
through webinars, from social media, and on our website, which 
I also encourage you to visit at transportation.gov/
beyondtraffic. Thought leaders, young professionals, and 
Americans from all walks of life continue to contribute to this 
effort, and to raise tough questions about the future we all 
must build.
    One of the most important questions is, how will we 
encourage the development and adoption of new technologies that 
can make travel safer and more convenient? Innovative 
technologies can support safer and more efficient vehicles, 
infrastructure, logistics, and transportation services. New 
sources of travel data can improve traveler experience, support 
more efficient management, and inform investment decisions. 
Automation and robotics will influence all modes of 
transportation, improving infrastructure maintenance, travel 
safety, and enable commercial use of autonomous vehicles.
    The Department currently invests almost $1.2 billion in 
transportation research, development and technology activities. 
To address the challenges we face, the President's fiscal year 
2016 budget request increases this investment by almost 30 
percent, to over $1.4 billion. The President's request directs 
research and technology investments to the priority areas 
highlighted in Beyond Traffic, and other areas important to the 
transportation enterprise. So I'd like to provide a brief 
overview of these priorities, but note that my written 
testimony provides many more details.
    The Department has a significant investment in vehicle to 
vehicle communication technologies, and vehicle automation 
innovations are developing rapidly, capturing the public's 
fancy. Grow America seeks to invest $935 million over six years 
in activities to advance vehicle automation and vehicle to 
vehicle technologies. The Administration made accelerating 
deployment of V2V technologies, and swiftly advancing a 
deployment framework for automated vehicles, a priority, 
seeking $158 million for the intelligent transportation system 
research program in fiscal year 2016, a 68 percent increase 
over inactive levels.
    Moreover, in May Secretary Foxx directed the NHTSA to 
accelerate the timetable for its rulemaking on V2V technology 
in new vehicles. He also committed to the rapid testing of 
unlicensed devices, seeking to share the wireless spectrum used 
by V2V to ensure there was no interference to critical safety 
of life messages as soon as the production ready devices are 
provided by industry. And he has asked NHTSA to make sure a 
regulatory framework promotes the deployment of proven traffic 
safety innovations in an effort to ensure an accelerated and 
safe deployment of these applications.
    So I'm certainly mindful of time. There was much more in my 
written testimony, but I would like to conclude by saying that 
I'm excited about the future of our surface transportation 
research programs. These programs are vital to achieving the 
safety, state of good repair, economic competitiveness, quality 
of life, and environmental sustainability goals of the U.S. 
Department of Transportation, and the expectations of the 
American public. We are addressing serious issues and seeking 
tangible results for the benefit of all citizens and our 
nation's economy, and I look forward to your questions. Thank 
you.
    [The prepared statement of Mr. Winfree follows:]
  
  
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Chairwoman Comstock. Thank you. And I now recognize Dr. 
Meyer for five minutes to present his testimony.

             TESTIMONY OF DR. MICHAEL MEYER, CHAIR,

                    RESEARCH AND TECHNOLOGY

                 COORDINATING COMMITTEE (FHWA),

       NATIONAL ACADEMIES' TRANSPORTATION RESEARCH BOARD

    Dr. Meyer. Thank you, Madam Chair, and Members of the 
Committee. As mentioned in my introduction, I am Chairman of 
the Transportation Research Board's Research and Technology 
Coordinating Committee, which provides guidance on highway 
research technology programs and advanced research priorities 
to the Federal Highway Administration. In my past career I've 
also been a Director in the State Department of Transportation, 
and responsible for a state transportation program, as well as 
for 15 years a Director at one of the nation's largest 
university transportation research centers, so I bring a broad 
perspective, in terms of some of the issues that you have 
before you. I'm going to summarize two Transportation Research 
Board reports that have focused on national transportation 
research, and then, with the time that's available, I'll 
provide my own thoughts at the end.
    Special Report 313, called Framing Surface Transportation 
Research for the Nation's Future, was a report that focused on 
research efforts in other countries around the world, as well 
as non-transportation domestic organizations, such as the 
Department of Agriculture, as well as NASA. Based on the 
analysis, the committee for that report made the following key 
recommendations. One, they thought there should be a new 
framework for U.S. surface transportation research that's 
guided by key national stakeholders in transportation. To a 
large extent, DOT's strategic plan has started that direction. 
The recommendation was for the Secretary of Transportation to 
consider ways to strengthen the coordination of transportation 
research within the DOT, and, in fact, appoint what they called 
a Chief Scientist position within the DOT. Third 
recommendation, focus on making sure that there would be both 
basic and advanced applied research with regard to the program. 
And then, finally, the USDOT should continue its activities, in 
terms of promoting knowledge transfer and dissemination.
    Special Report 313, called The Essential Federal Role in 
Highway Research and Innovation, focused on the Federal Highway 
Administration, and its role in the national transportation 
program. The report observed, in fact, that its--the Federal 
Highway's exploratory advanced research program is the type of 
basic research that the committee itself was looking for. It 
focuses on such things as connected highway and vehicle system 
concepts, breakthrough concepts in material sciences, human 
behavior and travel choices, technology for assessing 
performance of the system, as well as organizations, and new 
technology and advanced policies for energy and resource 
conservation. This is a type of research that we strongly 
recommended to Federal Highway as an RTCC, and, in fact, they 
took that recommendation and implemented that program.
    The report concludes that, in fact, that the Federal 
Highway Administration is in a very unique position to take a 
long view in research in terms of our nation's highway system, 
and to do advanced research that will, in fact, contribute to a 
vehicle to vehicle and vehicle to infrastructure program. With 
its national perspective, it can lead states in terms of 
developing and transferring tools and processes that can 
improve safety and system performance. And, with these 
economies of scale, in terms of having division offices in 
every state, it's uniquely positioned to support the 
implementation of innovations by states and local agencies, in 
particular developments relating to vehicle to infrastructure 
programs and standardization of projects and programs that come 
out of the Strategic Highway Research Program.
    So that summarizes, in very general terms, those two 
reports. Now, just my own observations, I think--I certainly 
congratulate the Subcommittee on the theme for this hearing, in 
terms of technology driving the future. My own experience in 
the field, and in a variety of positions, has really shown 
that, in fact, technology is one of the driving forces of where 
we are today, and will likely be in the future. So my own 
observations with regard to a national surface transportation 
research program follows. First, I do think the USDOT does have 
a critical role to play in establishing a research framework 
that guides not only its own modal agency's research programs, 
but also those that are under its area of responsibility, such 
the University Transportation's Research Program.
    I think this framework needs to recognize that it's not 
just government agencies that are doing research. It's the 
private sector, it's the universities, it's others, and that 
needs to be provided under kind of a guiding framework in terms 
of what should happen. The interaction of vehicle and 
infrastructure in particular I think suggests a very strong 
role for the USDOT in things like human factors research, as 
well as system performance and smart infrastructure.
    Third, this research portfolio should really combine both 
basic and applied research. One of the things that I've noticed 
in the field after many years is that basic research seems to 
be, well, that goes for National Science Foundation, and 
applied goes to Transportation, and I think that's a mistake. I 
think that the applied research community has a lot to offer in 
terms of understanding some of the basic concepts, the theories 
that underlie our research programs.
    Next, I believe that this base research program should be 
based on peer review. This is something that we discuss a lot. 
Both NSF, as well as the Transportation Research Board, has 
long experience in peer reviewed types of reports. I think that 
is the best way that we need to go forward as a nation.
    So, Madam Chair, and members of the Committee, I really 
thank you for the opportunity to present my ideas. As the 
Committee has noted, technology is driving our transportation 
future, but I would suggest that, in fact, research and 
development are driving technology, and that it is thus in the 
national interest to support, foster, and encourage the 
creativity that lays at the foundation of our technology 
future, with zero seconds left. Thank you.
    [The prepared statement of Dr. Meyer follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairwoman Comstock. Perfect. And I now recognize Dr. Smith 
for five minutes.

            TESTIMONY OF DR. BRIAN SMITH, DIRECTOR,

               CENTER FOR TRANSPORTATION STUDIES,

                     UNIVERSITY OF VIRGINIA

    Dr. Smith. Chairwoman Comstock, Ranking Member Lipinski, 
and Members of the Committee, thank you for holding this 
hearing and inviting me to testify today. My name is Brian 
Smith, and I am the Director of the University of Virginia 
Center for Transportation Studies. I appreciate the Committee's 
focus on the role of the federal government in supporting 
research to tackle emerging transportation challenges.
    UVACTS leads a wide range of research and education 
activities directly supporting local, state, and federal 
agencies, as well as the private sector. My testimony today 
will focus on the work of CTS in our new Mid-Atlantic 
Transportation Sustainability University Transportation Center, 
or MATS UTC for short, and how federal, state, and local 
engagement with, and support for, university research has 
improved the safety, efficiency, and sustainability of our 
nation's surface transportation system.
    UVA has a long history of working closely with local and 
state agencies, such as the Virginia Department of 
Transportation, or V-DOT, to deliver applied research that 
advances their missions. In addition, we also develop the 
future leaders of the transportation industry and train over 
2,000 V-DOT and local agency professionals annually to take 
full advantage of rapidly changing technology. To complement 
the applied research, basic research is essential to create the 
advances and develop technologies that sustain an efficient, 
reliable, and cost-effective system. In particular, a strong 
federal transportation research program is crucial as the 
research community seeks to develop new technologies that take 
advantage of rapid advances in fields such as materials and 
information technology.
    For many states, including Virginia, the Federal University 
Transportation Centers, or UTC Program, has played a key role 
in enabling a comprehensive program that balances both short 
term applied research with higher risk, higher reward basic 
research focused on emerging challenges. The UTC program brings 
together federal and state resources to address critical 
regional needs that limited state resources cannot address 
alone. The program is a small, but highly leveraged federal 
program that successfully maximizes the support.
    I will now change and discuss the new MATS UTC, which has 
expanded our research and education capabilities at UVA. MATS 
UTC began operation last July, and supports the surface 
transportation community in the United States, with a focus on 
the Mid-Atlantic region. The objective of our work is to 
improve the environmental sustainability of surface 
transportation services. Our partners in the UTC are Virginia 
Tech, Old Dominion University, Marshall University, Morgan 
State University, and the University of Delaware. Like many 
UTCs, the MATS UTC program focuses on research, technology 
transfer, undergraduate and graduate education, training of 
practicing transportation professionals, and outreach to 
introduce opportunities in surface transportation and STEM 
fields to the K-12 students, with a focus on traditionally 
underrepresented groups.
    We've organized the MATS UTC program to bring together the 
region's researchers to work on teams to tackle complex 
problems. A key component of our program lies in soliciting 
proposals to competitively award funding to support 
multidisciplinary research that addresses the needs of the 
region and nation. Our research is reviewed by national experts 
in a peer review fashion. Our multi-level research program is 
focused on five critical areas, sustainable freight movement, 
coastal infrastructure resiliency, energy efficient urban 
transportation, enhanced water quality management, and 
sustainable land use practices. USDOT is integral to the 
operation of MATS UTC, both through the funding it provides, 
and through close coordination with our team. MATS UTC also 
works closely with local and state transportation agencies to 
ensure that our research is responsive to local needs.
    Outside of MATS UTC, UVA continues to conduct research for 
the future surface transportation system. For example, UVA CTS 
supports the USDOT as it invests in development of connected 
vehicle applications, which you heard about a bit already, to 
provide connectivity between and among vehicles, 
infrastructure, and wireless devices, enabling safety, 
mobility, and environmental benefits. Our research is focused 
on using technology to allow DOTs to meet their missions more 
effectively, and at lower costs. An example is a recent 
research project on pavement roughness measurement to support 
roadway maintenance. This work we did provides the potential 
for V-DOT to improve their data collection, while also saving 
about $2 million a year in monitoring costs. UVA CTS also 
frequently interacts with private sector to involve companies 
in applied research, and to support rapid implementation of 
results. More detailed examples of technology transfer in our 
research is provided in my written testimony.
    UVA CTS is proud to have contributed to the development of 
transportation technology, and to have developed leaders in the 
transportation industry. Thanks to federal investment in 
research, in particular long term support of the critical UTC 
program, the country is well positioned to make our 
transportation system safer, more efficient, and sustainable. I 
appreciate the opportunity to provide testimony to the 
Committee, and I am happy to answer questions later. Thank you.
    [The prepared statement of Dr. Smith follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Owens for five minutes.

               TESTIMONY OF MR. JEFFREY J. OWENS,

                  CHIEF TECHNOLOGY OFFICER AND

                   EXECUTIVE VICE PRESIDENT,

                       DELPHI AUTOMOTIVE

    Mr. Owens. Okay. Thank you, Chairwoman Comstock, Ranking 
Member Lipinski, and Members of the Subcommittee on Research 
and Technology, for giving me the opportunity to testify today 
on behalf of Delphi. As Chief Technology Officer, I'm 
responsible for Delphi's global engineering organization, our 
innovation strategies, and our advanced technologies. As a 
leading global supplier of electronics and technologies for 
automotive, for commercial vehicles, and other market segments, 
we invest more than $1.7 billion annually into engineering 
development initiatives, and employ approximately 5,000 people 
in the U.S.
    Like the Science Committee, Delphi has a long history of 
dedication to technological innovation, culminating this April 
with the first autonomous vehicle cross-country drive. Are we 
okay to keep going? Okay. So let me pause to show a short video 
that highlights some of the Delphi technologies that made it 
possible. Okay. Well, that was a very short video. So if we'd 
had a chance to see the video, what you would've seen would've 
been a replay of our coast to coast drive that we did back in 
April, so--we outfitted an Audi Q5, if you will, drove 3,400 
miles through 15 states, went from San Francisco to New York 
City. We had a car that operated autonomously 99 percent of the 
time.
    So--we had a bunch of film clips in there of the car going 
through the variety of states across the United States. Some of 
the things that it encountered, like some of the bridge 
structures, the roundabouts, the lane markings that were 
different state to state. So there was a little bit of color on 
that, but the--for us, we installed a broad suite of our active 
safety technologies on a--like I said, a 2014 Audi Q5. We had 
the latest technology. It included radars, cameras, LIDARs, 
V2X, GPS, and driver state monitoring. In driver state 
monitoring, which allows the vehicle monitor the availability 
of the driver in situations where a takeover may be necessary. 
Looks like we----
    Chairwoman Comstock. I think it worked. Yeah. No, we'd love 
to see it, so----
    [Video shown.]
    Mr. Owens. So there's some narration that went with this, 
basically detailing that the sensors acts like your eyes and 
ears, and your touch as a human being. It imbeds into the 
infrastructure of the vehicle, makes the same decisions that 
you would make as a driver, and we were able to do it 99 
percent of the time autonomous. So one of our primary lessons 
from the success of this drive is that we've--we have available 
today, in the consumer marketplace, technology that includes 
forward collision warning, collision imminent braking, lane 
departure warning, and blind spot detection that, if more 
broadly adopted, will dramatically reduce deaths and injuries 
on our roads. Today's active safety technologies operate well 
enough to drive a car on its own 99 percent of the time, and 
these technologies, when paired with a driver, can address one 
of the greatest causes of premature deaths, and that's traffic 
accidents.
    Through consumer-based adoption of active safety technology 
11,000 lives can be saved annually without a technology 
mandate, without a broad new program, and without regulatory 
requirements. Vehicle deaths in the United States have declined 
with widespread adoption of passive safety technologies such as 
seat belts and airbags, but progress towards further death and 
injury reduction has stalled. We still have 33,000 deaths 
annually in the United States, and over 200,000 serious 
injuries each year on our roadways. So government and industry 
groups have studied the benefits of these technologies for well 
over a decade. A study by the Insurance Institute for Highway 
Safety, the IIHS, states that a 31 percent reduction in deaths 
is possible. So, once again, that's more than 11,000 lives 
saved per year with full deployment of active safety systems 
throughout the vehicle fleet.
    So, in conclusion, the driving public wants vehicles with 
improved safety features. As a cross country drive demonstrated 
anew, the technologies are currently available; however, it's 
difficult for consumers to understand their value. And a key 
consumer awareness tool is DOT's New Car Assessment Program, or 
NCAP, which includes a five star rating on all new vehicle 
stickers. Already both the insurance industry, through its IIHS 
Safety Pick Plus Program, and the European Union, through the 
Euro NCAP, incorporate active safety into their safety ratings.
    Though today, DOT's NCAP does not include active safety and 
five star rating system, and I feel the DOT should amend NCAP 
to require a five star rating in the five star rating system. 
It should include active safety features like collision 
avoidance technology. So this week Representatives Rokita and 
Blumenauer introduced the Safety Through Informed Consumers 
Act, or STICERS, which requires NHTSA to incorporate active 
safety into their safety rating system within a year. The 
legislation provides the best path forward for wide scale 
adoption of active safety by giving consumers information in a 
form they can use, and to which the market will respond.
    The sooner we increase consumer awareness, the sooner we 
can lower fatality rates, the sooner we move towards cars that 
can drive safely today, with a driver behind the wheel, and in 
the future, maybe on their own. So, again, thank you for the 
opportunity to address the Subcommittee, and I look forward to 
questions.
    [The prepared statement of Mr. Owens follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairwoman Comstock. Thank you. I now recognize myself for 
questions for--five minute question rounds, we'll have. Let's 
see. Okay. I wanted to follow up with Mr. Owens on how--with 
the bill you just mentioned, would that be expected to also 
bring the costs of insurance down for people who--that are 
using the technology, and do you have estimates on that?
    Mr. Owens. Yeah, I don't have estimates. I can say 
anecdotally insurance rates are starting to recognize, and you 
have to have enough data to get into the actuarial tables. 
Europe leads the United States here by implementing the five 
star a few years ago, so in Europe, with a Volvo, for example, 
you buy your insurance policy when you buy your car, three year 
policy typically. You get one year free in Europe if you have 
the active safety portfolio on the Volvo, so----
    Chairwoman Comstock. Wow.
    Mr. Owens. --starting to have a benefit, but they'll have 
to accumulate the data to know exactly what that's going to be.
    Chairwoman Comstock. Right. So you'd have saving lives, and 
then saving money, potentially, so----
    Mr. Owens. Exactly.
    Chairwoman Comstock. --a nice combination there. Great. All 
right. Now--like, with that case, part of getting more dollars 
for research and development is for us to actually see real 
life results. So, Secretary Winfree, I wanted to ask about 
state and local transportation agencies, your--deploy new 
technologies, such as systems that provide travelers with 
traffic information, decreasing congestion, you know, where 
they're telling you what's ahead, and really, you know, 
transferring more of the information, as well as, you know, we 
have our cell phones now, when we use them appropriately, that 
will tell us where the transportation bottlenecks are. How--to 
what extent is DOT communicating the results of your research 
on these new technologies to the states and localities so they 
can then implement it, and then what kind of tracking do you do 
of that implementation?
    Mr. Winfree. I would say it's principally through two 
different mechanisms. One is the DOT research hub, and that's a 
web based portal where all research conducted at the Department 
is posted and made available to the public. That's certainly 
the most direct means for that kind of information to be 
disseminated.
    But I would also say, you know, we are hugely supportive of 
open government, and of the--making access to research results 
available to the public. We've received a memo from the White 
House Office of Science and Technology Policy for making 
research results available to the public. So, by providing 
access through those two portals, state and local DOTs have 
access to the research data of federal investment. Can we track 
it? I would say our best tracking mechanism is following the 
hits and the results that we get on the research hub, but there 
isn't a formal means of dialogue with state and local DOTs on 
those issues.
    Chairwoman Comstock. Okay. Do they--did--are they given, 
like, best practices information, or seminars, you know, 
efforts to transfer that information at various levels? And 
maybe if the other witnesses have, you know, I see you're 
nodding, so if there's something where you can--if the others 
would like to jump in to address a little--some ideas on that.
    Dr. Meyer. Well, there's--I think there's been a long 
history of interaction between the USDOT and Federal Highway in 
particular, on the highway side, with AAHTO, the American 
Association----
    Chairwoman Comstock. Um-hum.
    Dr. Meyer. --of Highway Transportation Officials, as well 
as to the Transportation Research Board. There are, I think, a 
lot of examples of where there are research briefs, there's 
discussions, there's conferences, there's workshops. I think 
there's a pretty good dissemination of research results. The 
issue, of course, is that there's so much research going on, as 
I say in my written testimony, there's so many groups doing 
research that sometimes things happen that you're not quite 
aware that have a real impact, like your phone, for example, as 
you mentioned.
    So--but my sense is that there is a pretty good 
relationship going on between disseminating the research 
results out, whether it be through universities, or through 
professional organizations, or through groups like the AATHO.
    Dr. Smith. Just to briefly add to that, and one of the--I 
think the strengths of the UTC program is that the universities 
can serve as that kind of conduit, to take the research that's 
been sponsored at the federal level. We know the people in our 
state and local agencies. We talk to them just informally. We 
have courses specifically to try to take the results from 
research and make it more tangible and usable. So we don't just 
say, here's a paper, read it. We really try to find ways to 
make it real so that they can implement it, and that's an 
important part of the UTC program.
    Chairwoman Comstock. Great, thank you. And I see my time is 
just about up, so I--I'll recognize Ranking Member Mr. 
Lipinski.
    Mr. Lipinski. Thank you. So many questions here, let me 
just quickly jump into it. First, for Mr. Winfree--Secretary 
Winfree and Dr. Meyer, a substantial share of transportation 
research is conducted, as I mentioned in the opening statement, 
by federal agencies such as NASA, NSF, DOE, and DOD. For 
example, Argon National Lab, which is in my district, conducts 
transportation systems resilience modeling using their 
supercomputers. But how does the USDOT coordinate with these 
agencies to make use of resources like supercomputers, and what 
can be done to develop substantive interactions with other 
federal agencies?
    Mr. Winfree. Thank you for the question, Mr. Lipinski. DOT 
works across the enterprise, from a federal agency perspective. 
We work with many different agencies and departments, depending 
on the issue at hand. So, for example, workforce development, 
which is a key role that we play at the Department, we 
partnered with the Department of Labor, the Department of 
Education, to have a continuum. With respect to renewable 
energy and sustainable transportation, we work very closely 
with the Department of Energy. Just yesterday I spoke with the 
NASA Jet Propulsion Laboratory about combining our knowledge to 
research automation, and--looking forward to, you know, 
unmanned aerial devices, and other kinds of technologies. JPL 
is one of our key partners there, or will be as well.
    So the best way to put it is we're aware of what's going on 
across government. We work collaboratively with those agencies 
and departments in many different spaces. We partner with the 
Department of Defense in maintaining the GPS satellite 
Constellation. So all of these different technologies are 
resident--that are resident at DOT we're aware of across 
government, and work collaboratively with other organizations.
    Mr. Lipinski. Thank you. Dr. Meyer?
    Dr. Meyer. Thank you, Congressman. I--yeah, my sense on 
this is that much of the research that's done at national 
laboratories, for example, in the transportation area is often 
done under contract with the DOT, so the DOT is pretty much 
aware of it.
    What doesn't happen, in my opinion, is that there's a lot 
of work that's been at Argon, and Los Alamos, and others that 
have relationships to transportation, but weren't--they didn't 
originate from the transportation community, so to speak, or 
from the DOT. And we kind of find out about them, after the 
fact type of stuff. And that goes back to my testimony about 
having this new framework, this research framework that kind of 
lays out what it is that we, as a nation, really need to be 
focusing on with regard to key ideas, key thoughts, key 
research concepts, and then making--then seeing what everyone--
what part everyone has to play.
    I mean, I've seen work that's been done by EPA, for 
example, that folks at DOT didn't--weren't even aware of, but--
strictly related to the transportation group. So I have no 
doubt that there is coordination and there's discussion going 
on, but given a government the size of our government, things 
do happen out there from different sources that I think could 
be better coordinated, quite frankly.
    Mr. Lipinski. Thank you. Next question, and I'd like to go 
into this more, but a simple yes or no, just with limited time. 
I'm hoping for a particular answer. I think I'll get it. The 
National Freight Cooperative Research Program was eliminated in 
MAP 21, so I want to ask Secretary Winfree and Dr. Meyer, would 
reinstalling this program help inform national freight 
strategy?
    Mr. Winfree. Yes, and we've requested that in Grow America.
    Dr. Meyer. And I cannot agree more with that, because----
    Mr. Lipinski. Microphone?
    Dr. Meyer. I'm sorry. I thought mine was on. I can't agree 
more with that. My--it's a big yes. I was shocked that, in 
fact, it was de-authorized, or whatever the term was. I think 
it's a very valuable program that should be reinstituted.
    Mr. Lipinski. All right, thank you. And last, for Mr. Owens 
and Secretary Winfree, Mr. Owens, Delphi is at the forefront of 
demonstrating the technology that's available. V2V will be 
rolling out next year with GM and others, and self-driving cars 
are testing out extremely well. So far these two initiatives 
are running almost independently. I want to ask, do you believe 
that autonomous driving can be made safer by using V2X 
technology, and what should be done to bring the two streams of 
research together?
    And let me throw in this one other part, if anyone wants to 
give an answer. One of the most fascinating things to me was 
a--when I had this panel out in the Bay Area, Silicon Valley, 
is how much more efficient can our system get with technology, 
the current road system we have right now? So, Mr. Owens, I 
don't have much time, so----
    Mr. Owens. Yeah.
    Mr. Lipinski. --whatever you can add to it----
    Mr. Owens. So, first of all, I don't consider that those 
are two separate initiatives. If you look at our vehicle that 
we put on the road, it had all of the technologies, including 
V2V and V2X, on there. We'll be first to market next year, with 
General Motors, to V2V.
    It's a matter of building blocks. It--to get to a fully 
automated vehicle, or even semi levels of automation, it's--you 
take the technology that's available and ready today. Active 
safety is ready today. Vehicle to vehicle technology is not--
there's nothing more to invent there. It's a matter of 
implementation, but it's not on the road today. As it goes on 
the road, you've got a radar system, you've got a vision 
system, you get a very compelling scenario analysis in front of 
the vehicle to help the vehicle decide what actions to take, 
where the threats are. You add to that, then, when it's ready--
vehicle to vehicle, it's a wonderful addition to those building 
blocks to help complete that scenario of what's around the 
vehicle, even more so through the intersection on further down 
the road. So I--very complimentary. Again, on the roadmap to a 
fully automated vehicle, I consider all those technologies 
critical.
    Mr. Lipinski. Well, let me--because I'm over time already, 
you go--it says, Secretary Winfree, adding to that--does anyone 
want to give an estimate of how much more efficient--because I 
have heard between two times and four times more efficient, 
that if we could put that many more vehicles on our current 
road system if we have completely autonomous vehicles with all 
the technology, you know, gets--V2X is out there, how much more 
efficient can we get?
    Mr. Owens. Well, I can--
    Mr. Lipinski. I'm not going to hold you to this.
    Mr. Owens. Yeah. I can give you the data that I've read, as 
others have. A report just came out from one of the consulting 
groups two weeks ago that said you'll require 40 percent less 
vehicles. You'll require 80 percent less parking. I mean, those 
kinds of statistics. So I can't validate the numbers, but 
that's--I mean, generally that would be in the ballpark of what 
you could expect.
    I can tell you, closer in, before you get to automated, if 
you put even adaptive cruise control, being able to 
automatically set the headway, just that, three to five percent 
pickup in fuel economy if you just have one out of four cars 
that have it on the highway. If you get two cars out of four 
that have it on the highway, you're in the five to eight 
percent pickup because you have smoother flow, you have less 
gridlock, you less of the accordion effect when traffic stacks 
up. So I think those statistics are pretty compelling, even in 
the near term, before you get autonomous.
    Mr. Lipinski. Well, I'll yield back. Now, I'd love to hear 
more, but I'm going way over. Thank you, Chairwoman.
    Chairwoman Comstock. Thank you, and Mr. Moolenaar, you're 
now recognized.
    Mr. Moolenaar. Thank you, Madam Chair, and I want to thank 
all of you for sharing your insights with the Committee. And 
I've learned a lot already today, so appreciate that.
    Secretary Winfree, I wanted you, if you could, to elaborate 
a little bit. You mentioned in your testimony some of the work 
being done in Ann Arbor. And, as a Michigan representative, you 
know, I'm aware of some of the work they're doing. They've 
created a mobility transformation facility, and--to test how 
autonomous vehicles respond to real world situations. And what 
I was hoping you might do is just elaborate on how you work 
with them in this regard. And I know there are some plans to 
expand also through the Detroit corridor.
    Mr. Winfree. Yes, thank you for the question. And the first 
thing I would point out is that I'm extraordinarily pleased to 
be here with UTC representatives. As they've both mentioned, 
the UTC program is extraordinarily strong in supporting our 
transportation initiatives. So, to carry that further, we're 
working with the University of Michigan, another one of our 
UTCs, on connected vehicle technologies, and they are putting 
together the Southeast Michigan Connected Corridor. So, from 
Novi past Detroit, that will be a roadway test bed, kind of a 
living laboratory, that looks at connected vehicles, vehicle to 
vehicle communications, vehicle to infrastructure, everything 
from road weather to signal phase and timing.
    So it'll be a--again, a living platform that the University 
of Michigan, in the conduct of our connected vehicle safety 
pilot, first developed. So the safety pilot was a 3,000 vehicle 
circulating in and around Ann Arbor, giving us that rich data 
that was used to inform the NHTSA AMPRM. So we're very 
supportive on the research side of where NHTSA wants to go with 
connected vehicle technology. And all this is made possible by 
our strong partnership with the University of Michigan.
    Mr. Moolenaar. Wonderful. Thank you. And I also wondered if 
you might comment on some of the policy issues for autonomous 
vehicles, and how the research at the universities has 
contributed towards, you know, clarifying some of the policy 
issues. And then one in particular I was hoping you might talk 
about is--I've heard from individuals about spectrum 
availability for vehicle to vehicle technology, and that the--
on May 13 Secretary Fox announced plans to accelerate the 
rulemaking proceeding. And I don't know all the specifics of 
that, but I guess the core question I have is, is that going to 
require an additional funding request, or do you feel that 
funds are sufficient to accelerate that process?
    Mr. Winfree. With respect to the first question, the 
question about spectrum business is quite lengthy, so maybe 
I'll start there first, because it's an important question for 
me to address. V2V operates in the 5.9 Gigahertz spectrum. 
Right now the Wi-Fi industry is interested in sharing that 
spectrum for UNII devices, Unlicensed National Information 
Infrastructure, devices. The problem is we can't tolerate 
interference in critical safety of life applications.
    DSRC communicates 10 times per second relative speed, 
steering wheel position, brake force, et cetera, of what a 
vehicle that's potentially in a collision scenario is doing. So 
it gives drivers advance warning to engage in evasive or 
preventive maneuvers and avoid crashes. As we know, we have 
32,719 fatalities on our roadways, and that number is 
unacceptably high, as Mr. Owens has pointed out. So this is a 
critical technology that will really reduce and address those 
crash scenarios. We're not averse to testing, but, again, we 
need devices, and the Wi-Fi industry has not produced 5.9 
Gigahertz Wi-Fi devices for us to test in a real world 
scenario. We have a current testing platform in--data--test bed 
in Cheltenham, Maryland, at the DHS federal Law Enforcement 
Training Facility, where we'll be able to engage in testing as 
soon as devices are delivered.
    So that's what Secretary Fox said when he said that, look, 
we're going to move forward with our rulemaking with respect to 
V2V. We are willing to work with industry on testing to see 
whether or not there is harmful interference. We think that 
within 12 months we'll have data that will let us know up or 
down whether or not testing--sharing can be tolerated. But none 
of that can start until we get devices, so we're moving on dual 
tracks with--full speed ahead for the NHTSA NPRM, but we're 
also interested in working with industry, should they provide 
the devices that we need.
    Mr. Moolenaar. Thank you very much. Thank you, Madam Chair.
    Chairwoman Comstock. Thank you, and I now recognize Mr. 
Westerman.
    Mr. Westerman. Thank you, Madam Chair, and I do appreciate 
you all coming and testifying today. This is the kind of stuff 
engineers like to listen to.
    So my first question is to Secretary Winfree regarding 
research and development technology. How does the Office of the 
Assistant Secretary for Research and Technology identify 
duplicative research programs at the Department of 
Transportation, and if redundancies are identified, how are 
they addressed?
    Mr. Winfree. Thank you for the question. The reason this 
organization was stood up, and you may remember the original 
RITA, the Research and Innovative Technology Administration, my 
office is that office, but we're now elevated into the Office 
of the Secretary.
    Our principle role is research coordination across the 
Department, and the means in which we effect that are through 
monthly RD&T planning team meetings. So we bring together the 
associate administrators of research across the Department's 
operating administrations, and on a monthly basis engage them 
in a discourse and dialogue about what each research 
organization is working on.
    And just by, you know, getting us out of those stovepipes, 
and having those discussions, has really brought to light a lot 
of the activities that are going on. It's helped us reduce--or, 
you know, address whether or not there are duplicative, you 
know, research programs. As custodians of taxpayer dollars, 
we're extraordinarily sensitive to the need to--and the 
responsibility to be as fiscally responsible as possible. So 
that's the principle means for us to do that.
    We also have an RD&T planning council executive committee, 
and those are where the administrators across the Department 
are brought together as well to talk about what their 
individual organizations are doing. So just by staying closely 
engaged with the research community across the Department is 
the best way for us to tackle that issue.
    Mr. Westerman. All right. Next question, for Dr. Smith and 
Dr. Meyer, you know, with the issues with funding for 
transportation, when conducting research for transportation 
systems, how much emphasis is placed on life cycle cost, 
initial construction cost, and overall economic impact of 
designs as it relates to earthwork, and base preparation, and 
pavement systems, and, you know, things like bridge and 
overpass structures?
    Dr. Meyer. That is a great engineering question. Thank you 
for that. As a fellow engineer, I take it. Several years ago, I 
don't know when the specific date was, the DOT actually issued 
a policy saying that, you really need to do life cycle costing 
in terms of federal projects, for example. And so the research 
part of it is very much looking at--when you look at new 
materials, composite materials, nanotechnology, all that type 
of stuff, we are looking at, from a research perspective, over 
the life--total life cycle, in terms of the replacement, the 
recycling, and the O and M during the life of it, as well as 
the initial capital, and the recapitalization as you go 
through.
    So I would say that most research that deals with the 
structure side, the materials side, the equipment/technology 
side is very much focusing on the issue of life cycle costing. 
That's just the way that we look at benefit/cost now these 
days.
    Mr. Westerman. So can you give some examples of recent 
developments in highway transportation that have resulted from 
federally funded research that have increased transportation 
durability and----
    Dr. Meyer. I----
    Mr. Westerman. --reduced life cycle cost?
    Dr. Meyer. Sure. I think the obvious example is the 
pavement research that was done to so-called super pave, I 
guess is the phrase for it, where we went to Europe and other 
places to see how they did certain things, came back, and kind 
of recomposed how we did our pavement surfaces, and developed 
pavement materials, and pavement construction technologies, 
that made the life of the pavement much longer.
    And so--then that was funded through the--I think it was 
through DOT, through the Sharp Program, or the through the 
Transportation Research Board, but the money came, to a large 
extent, from the Department of Transportation. So I think 
that's a clear example, in terms of how research has really led 
to longer lived, longer life, if you will, with regard to 
materials that every state DOT in the country uses.
    Mr. Westerman. So is the real apple out there still in 
materials? You mentioned nanotechnology. What can we expect in 
the future? Because, you know, you think about how long highway 
systems have been analyzed in research.
    Dr. Meyer. Yeah.
    Mr. Westerman. What's left to gain?
    Dr. Meyer. Well--and I, you know, as a former researcher, 
there's always a lot of apples, you know, that you want to eat 
and bite into. I certainly believe that materials is an area 
where there's a lot yet to gain, in terms of higher strength, 
lower weight type of materials, the so-called composites and 
nanotechnology.
    I--in--what we've been talking about before is the 
operations of the system, the V2V, V2I type of stuff, which I 
do think there's tremendous efficiencies and tremendous 
additional effectiveness that we can get out of our 
transportation systems by looking at how to better manage 
through technology. So I--that's another area where I think we 
can really gain a lot, in terms of research and technology 
development. But materials certainly is one where I think we 
can--we need to continue our research and technology to get 
those efficiencies out of the materials.
    Mr. Westerman. I'm out of time, Madam Chair.
    Chairwoman Comstock. I now recognize Mr. Palmer.
    Mr. Palmer. Thank you, Madam Chairman. A couple of 
questions. Mr. Winfree, for fiscal year 2016 budget requests 
for the National Highway Traffic Safety Administration, Vehicle 
Research and Analysis Programs was 39.7 million, to be used to 
conduct motor vehicle safety research and develop advanced 
vehicle safety technology. Does this research duplicate 
research being done by the automakers and other private 
entities?
    Mr. Winfree. I would say it's complimentary. You know, 
those are vexing issues, and they're looking at it from 
different perspectives. Certainly the OEMs have a vested 
interest in those technologies for protecting passengers, as 
well as, you know, their ultimate customers down the line, but 
NHTSA looks at it from a safety perspective. We are a safety 
first organization, and those technologies, we believe, are the 
best means for kind of a holistic view about occupant safety.
    One of the things we talk about at DOT is the first 50 
years have been focused on having vehicle occupants survive 
crashes. The next 50 will be about avoiding crashes altogether. 
So all of that is part of a continuum of research at NHTSA.
    Mr. Palmer. Well, I was going to ask something else, but 
because you put so much emphasis on vehicle safety, as opposed 
to infrastructure, there's a role in that. And I do think 
there's a role, and I'll come to Dr. Meyer on this in a moment.
    The President is proposing the corporate auto fuel economy 
standards to be 35.5 miles per gallon for--by 2016, and 54.5 by 
2025, yet the research shows that--and I think the National 
Highway Safety Standards Board made this projection that for 
every 100 pounds you reduce the weight of a vehicle, that it 
increases the highway fatalities by just about five percent. 
And there's research and data out there that indicates that 
thousands of people have died as a result of being in lighter 
vehicles that were basically forced upon the automobile 
industry. How do you respond to that, and what does the 
highway--well, what does your group--what are you doing in the 
context of trying to improve vehicle safety from that 
perspective, when you're--seem to be working--the ends that 
you're trying to get to seem to be at odds with each other.
    Mr. Winfree. No, thank you for that, and, unfortunately, 
I'm not as expert as I should be in responding to that 
question, so I have to defer, perhaps to questions for the 
record. But one thing I would say, you know, if you look at the 
light-weighting of vehicles in auto racing, you know, concept, 
they're able to construct vehicles that are withstanding 
crashes of significantly more velocity than on our roadways 
today. So there are technologies available, there are materials 
available, that will make for lightweight, but strong, vehicles 
that will protect occupants.
    Mr. Palmer. I appreciate that, but there's basic physics 
involved here, and, you know, while you're trying to work 
toward a solution toward this, there's still people going to 
die because of these government imposed standards.
    Mr. Meyer, you talked a little bit about the composite 
materials, and things that you're using on--for highway 
services. What kind of research is out there on that end that 
will not only make it less expensive to--for highway 
construction, but safer in the context of vehicle 
transportation?
    Dr. Meyer. Well, I'm not that familiar with vehicle 
composite--which is what Mr. Winfree was talking about, in 
terms of the vehicles themselves, but on the infrastructure 
side there's been a large amount of research on structures, 
bridges, for example, being designed and built out of composite 
material so that, in fact, they're much, much long--have longer 
lives, and they don't have to be maintained as much.
    With regard to the safety element to it, I wouldn't say it 
so much on the composite materials side as it is the types of 
materials that you put into roads, intersections, and the 
interface with the vehicle and tires that, in fact, make the 
actual movement of the vehicle along that pavement much safer, 
in terms of what's wet pavement, and that type of stuff. So 
there's a lot of work that's been done on that. I wouldn't, 
again, call it a--composite materials, but it's a different 
type of materials research.
    Safety is a huge focus for a lot of universities, as well 
as government agencies on the materials side, as well as on the 
operations side, and, as you mentioned, also on the vehicle 
side. So I think that one can certainly point to a fair amount 
of research that I'm aware of, at least at--on the materials 
side, that relates directly to safety--safe movement of 
vehicles and trucks.
    Mr. Palmer. Let me just conclude my time by going back to 
the original question, about the duplication of research. And I 
think, in our current budget situation, we want to eliminate as 
much duplication as we can, and there is excellent research 
being done at Auburn University, at the National Center for 
Asphalt Technology. So if--in the event that you're not 
familiar with that, I encourage you to talk with them about 
surface transportation and highway safety. Thank you, Madam 
Chairwoman.
    Chairwoman Comstock. Thank you. And I just want to thank 
our witnesses today for your testimony, and for, really, the 
exciting innovations that you all are working on, and I'd like 
to invite you to, you know, continue to share any information 
or developments as you see, and to inform the Committee. And we 
very much appreciate you being here this morning, and thank you 
for the early start too. We have, as you may know, some busy 
votes ahead of us today. So thank you very much.
    The record will remain open for two weeks for additional 
comments and written questions from members. And, again, we 
really appreciate your valuable testimony, insight, and the 
spirit of innovation reflected here this morning. Thanks so 
much. And the hearing is adjourned.
    [Whereupon, at 10:22 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by The Hon. Gregory D. Winfree

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Michael Meyer


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Brian Smith

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Jeffrey J. Owens

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                              Appendix II

                              ----------                              


                   Additional Material for the Record




    Prepared statement submitted by Represenative Elizabeth H. Esty

    Thank you, Chairman Comstock and Ranking Member Lipinski, for 
holding this hearing, and thank you to our witnesses for your time and 
for sharing your expertise today.
    Transportation infrastructure has the potential to dramatically 
transform over the coming years due to advancements in modern 
technology. Technology in our cars alone, from vehicle-to-vehicle 
technology, to vehicle-to-infrastructure technology and autonomous 
vehicles could drastically alter the landscape of our roads. With 
safety and privacy concerns paramount, a greater federal investment is 
needed to ensure transportation technology is reliable and secure as it 
is increasingly integrated with our transportation network. Additional 
technological developments to our transportation infrastructure could 
decrease congestion, improve efficiency, expand economic growth, and 
make our roads safer.

                                 [all]
</pre></body></html>
